                        OFFICE OF
                 THE INSPECTOR GENERAL
                       U.S. NUCLEAR
                 REGULATORY COMMISSION


                          Systems Evaluation of the
                          General License Tracking
                               System (GLTS)

                     OIG–04-A-24 September 30, 2004




              EVALUATION REPORT




All publicly available OIG reports (including this report) are accessible through
                               NRC’s website at:
             http://www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                            September 30, 2004




MEMORANDUM TO:               Luis A. Reyes
                             Executive Director for Operations



FROM:                        Stephen D. Dingbaum/RA/
                             Assistant Inspector General for Audits


SUBJECT:                     SYSTEM EVALUATION OF THE GENERAL LICENSE
                             TRACKING SYSTEM (GLTS) (OIG-04-A-24)

This evaluation was conducted as part of the Office of the Inspector General’s review of
NRC’s implementation of the Federal Information Security Management Act (FISMA) for
FY 2004. Richard S. Carson & Associates, Inc., performed this independent system
evaluation on behalf of OIG.

Based on its review and evaluation of the General License Tracking System’s
management, operational, and technical controls, Richard S. Carson & Associates, Inc.,
determined that GLTS has the following weaknesses:

   Ø Security documentation for GLTS does not always follow required guidelines.
   Ø Security protection requirements are inconsistent within GLTS’ security
     documentation.
   Ø NRC is not tracking all action items resulting from testing GLTS’ security controls.

The weaknesses identified are not significant deficiencies or reportable conditions.
During an exit conference on September 13, 2004, NRC officials provided comments
concerning the draft audit report and opted not to submit formal written comments to this
report.

If you have any questions or wish to discuss this report, please call me at 415-5915 or
Beth Serepca at 415-5911.

Attachment: As stated
Distribution List

B. John Garrick, Chairman, Advisory Committee on Nuclear Waste
Mario V. Bonaca, Chairman, Advisory Committee on Reactor Safeguards
John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
G. Paul Bollwerk, III, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
William N. Outlaw, Director of Communications
Dennis K. Rathbun, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
Patricia G. Norry, Deputy Executive Director for Management Services, OEDO
William F. Kane, Deputy Executive Director for Homeland Protection
  and Preparedness, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research
  and State Programs, OEDO
Ellis W. Merschoff, Deputy Executive Director for Reactor Programs, OEDO
William M. Dean, Assistant for Operations, OEDO
Jacqueline E. Silber, Chief Information Officer
Michael L. Springer, Director, Office of Administration
Frank J. Congel, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Paul E. Bird, Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Carl J. Paperiello, Director, Office of Nuclear Regulatory Research
Paul H. Lohaus, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
Office of Public Affairs, Region I
Office of Public Affairs, Region II
Office of Public Affairs, Region IV
                       “Office of the Inspector General
                           System Evaluation of the
                   General License Tracking System (GLTS)”




                          Contract Number: GS-00F-0001N
                        Delivery Order Number: DR-36-03-346

                                              September 24, 2004




“The views, opinions, and findings contained in this report are those of the authors and should not be construed as an official U.S. Nuclear
              Regulatory Commission position, policy, or decision, unless so designated by other official documentation.”
[Page intentionally left blank]
                                                                           System Evaluation of GLTS



EXECUTIVE SUMMARY


BACKGROUND

      On December 17, 2002, the President signed the E-Government Act of 2002 (Public Law
      107-347), which includes the Federal Information Security Management Act (FISMA) of
      2002. FISMA outlines the information security management requirements for agencies,
      which include an independent evaluation of an agency’s information security program
      and practices, and an evaluation of the effectiveness of information security control
      techniques. FISMA also requires an assessment of compliance with requirements and
      related information security policies, procedures, standards, and guidelines. As part of
      the Fiscal Year 2004 FISMA independent evaluation of the U.S. Nuclear Regulatory
      Commission’s (NRC) information technology security program, Richard S. Carson
      Associates, Inc. (Carson Associates) reviewed security controls for the General License
      Tracking System (GLTS).

      GLTS facilitates the tracking and accountability of general licensees and generally
      licensed devices with the implementation of a general license registration program.
      GLTS stores information about all current 10 CFR 31.5 and 31.7 general licensees, along
      with device information and vendor information. Of these licensees, a subset, based on a
      higher level of health and safety risk, will be subject to initial registration. The system
      includes automation necessary to facilitate mailing, receipt, and input of registrations.

PURPOSE

      The system evaluation objectives were to review and evaluate the management,
      operational, and technical controls for GLTS.

RESULTS IN BRIEF

      Carson Associates reviewed GLTS security documentation and found that GLTS security
      documentation is not always consistent with National Institute of Standards and
      Technology (NIST) guidelines, the security protection requirements are inconsistent
      within GLTS security documentation, and findings and recommendations resulting from
      testing are not consistently being tracked. None of these weaknesses are considered to be
      significant deficiencies or reportable conditions as defined in Office of Management and
      Budget guidance.

      Security Documentation Is Not Always Consistent With NIST Guidelines

      FISMA directs the Secretary of Commerce, on the basis of standards and guidelines
      developed by NIST, to prescribe standards and guidelines pertaining to Federal
      information systems. NIST has developed several guidelines and standards, including
      those for conducting risk assessments, developing security plans, and contingency plans.
      NRC Management Directive (MD) 12.5, NRC Automated Information Security Program,
      which was revised in September 2003, states that NRC shall comply with NIST guidance


                                               i
                                                                     System Evaluation of GLTS



to include guidance related to the preparation of security documentation (such as system
security plans, risk assessments, and contingency plans), and other applicable NIST
guidance for information technology security processes, procedures, and testing.

The previous version of MD 12.5 did not require compliance with NIST guidelines,
however, Office of Management and Budget (OMB) Circular A-130, Management of
Federal Information Resources, Appendix III, Security of Federal Automated
Information Resources, states that each agency’s program shall implement policies,
standards and procedures which are consistent with government-wide policies, standards,
and procedures issued by the Office of Management and Budget, the Department of
Commerce, the General Services Administration and the Office of Personnel
Management. OMB periodically reminds agencies that agency security practices should
be consistent with NIST guidance. The FY 2004 FISMA guidance issued by OMB
specifically states that agencies must follow NIST standards and guidance. Use of NIST
guidance is flexible, provided agency implementation is consistent with the principles
and processes outlined within the NIST guidance.

Carson Associates reviewed the GLTS Risk Assessment, Security Plan, and Business
Continuity Plan and found that while the documentation is up-to-date, it is not always
consistent with NIST guidelines.

Security Protection Requirements Are Inconsistent Within Security
Documentation

FISMA defines the term “information security” to mean protecting information and
information systems from unauthorized access, use, disclosure, disruption, modification,
or destruction in order to provide confidentiality, integrity, and availability.
Confidentiality is preserving authorized restrictions on information access and disclosure,
including means for protecting personal privacy and proprietary information. Integrity is
guarding against improper information modification or destruction, and includes ensuring
information non-repudiation and authenticity. Availability is ensuring timely and reliable
access to and use of information. Confidentiality, integrity and availability are often
referred to as security protection requirements or security objectives for a system. The
security protection requirements defined in the GLTS Security Plan and in the FY 2003
and FY 2004 GLTS self-assessments are inconsistent.

Findings and Recommendations Resulting From Testing Are Not Consistently
Being Tracked

The FY 2003 FISMA independent evaluation of NRC’s information security program
found that not all corrective actions resulting from security reviews and testing were
being tracked and that the agency’s corrective action process needed improvement. The
Office of the Inspector General (OIG) recommended that the agency identify all
weaknesses and recommendations from security documentation and any other security
reviews, and determine in which tool the recommendations will be tracked. In November
2003, the Office of the Chief Information Officer (OCIO) issued a memo describing the
agency’s information technology security action item tracking process, strategy, and


                                         ii
                                                                       System Evaluation of GLTS



     tools. Carson Associates found that findings and recommendations resulting from testing
     of GLTS security controls and from GLTS contingency plan testing are not consistently
     being tracked.

RECOMMENDATIONS

     This report makes five recommendations to the Executive Director for Operations to
     strengthen management, operational, and technical controls for GLTS. A consolidated
     list of recommendations can be found on page 11 of this report.

AGENCY COMMENTS

     On September 13, 2004, the Executive Director for Operations provided comments
     concerning the draft system evaluation report. We modified the report as we determined
     appropriate in response to these comments.




                                            iii
                                  System Evaluation of GLTS




[Page intentionally left blank]




              iv
                                                                   System Evaluation of GLTS



ABBREVIATIONS AND ACRONYMS


BCP      Business Continuity Plan
CFR      Code of Federal Regulations
FIPS     Federal Information Processing Standards
FISMA    Federal Information Security Management Act
FY       Fiscal Year
GLTS     General License Tracking System
ITSSTS   Information Technology Systems Security Tracking System
MD       Management Directive
NIST     National Institute of Standards and Technology
NMSS     Office of Nuclear Material Safety and Safeguards
NRC      U.S. Nuclear Regulatory Commission
OCIO     Office of the Chief Information Officer
OIG      Office of the Inspector General
OMB      Office of Management and Budget
POA&M    Plan of Action and Milestones
SP       Special Publication




                                       v
                                  System Evaluation of GLTS




[Page intentionally left blank]




              vi
                                                                                                               System Evaluation of GLTS



TABLE OF CONTENTS


Executive Summary ....................................................................................................... i

1 Background .............................................................................................................. 1

2 Purpose..................................................................................................................... 2

3 Findings .................................................................................................................... 2
    3.1     Security Documentation Is Not Always Consistent With NIST Guidelines....................2
    3.2     Security Protection Requirements Are Inconsistent Within Security Documentation.....7
    3.3     Findings and Recommendations Resulting From Testing Are Not Consistently Being
            Tracked.............................................................................................................................8
4 Consolidated List of Recommendations.............................................................. 11

5 OIG Response to Agency Comments................................................................... 12


Appendices

    Appendix A: Scope and Methodology ..................................................................................13




                                                                     vii
                                  System Evaluation of GLTS




[Page intentionally left blank]




              viii
                                                                                            System Evaluation of GLTS



1        Background

On December 17, 2002, the President signed the E-Government Act of 2002 (Public Law 107-
347), which includes the Federal Information Security Management Act (FISMA) of 20021.
FISMA outlines the information security management requirements for agencies, which include
an independent evaluation of an agency’s information security program and practices, and an
evaluation of the effectiveness of information security control techniques. FISMA also requires
an assessment of compliance with requirements and related information security policies,
procedures, standards, and guidelines. As part of the Fiscal Year 2004 FISMA independent
evaluation of the U.S. Nuclear Regulatory Commission’s (NRC) information technology security
program, Richard S. Carson Associates, Inc. (Carson Associates) reviewed security controls for
the General License Tracking System (GLTS).

General License Tracking System

GLTS facilitates the tracking and accountability of general licensees and generally licensed
devices with the implementation of a general license registration program. GLTS stores
information about all current 10 CFR 31.5 and 31.7 general licensees, along with device
information and vendor information. Of these licensees, a subset, based on a higher level of
health and safety risk, will be subject to initial registration. The system includes automation
necessary to facilitate mailing, receipt, and input of registrations.

The NRC Office of Nuclear Material Safety and Safeguards is the GLTS system owner. The
system is categorized as a Major Application2 and is in the operational3 phase of its life cycle.

System Evaluation Process

GLTS was evaluated by reviewing system documentation maintained by OCIO. As
recommended by the Office of Management and Budget (OMB), Carson Associates reviewed
the following documents for adherence to standards and consistency with guidelines issued by
the National Institute of Standards and Technology (NIST).

    •    GLTS Risk Assessment, July 2002
    •    GLTS Security Plan, August 2002
    •    GLTS Business Continuity Plan, March 2004
    •    GLTS Security Test and Evaluation Report, August 2002
    •    GLTS System Certification Report, September 2002
    •    Certification and Accreditation Statement, September/October 2002

1
  The Federal Information Security Management Act of 2002 was enacted on December 17, 2002, as part of the E-
Government Act of 2002 (Public Law 107-347), and replaces the Government Information Security Reform Act,
which expired in November 2002.
2
  An application that requires special attention to security due to the risk and magnitude of harm resulting from the
loss, misuse, or unauthorized access to or modification of the information in the application.
3
  A system’s life cycle typically comprises five phases: initiation, development/acquisition, implementation,
operation/maintenance, and disposal. In the operation/maintenance phase, systems are in place and operating,
enhancements and/or modifications to the system are developed and tested, and hardware and/or software is added
or replaced.


                                                           1
                                                                                      System Evaluation of GLTS




      •   Privacy Impact Assessment
      •   FY 2003 and draft FY 2004 GLTS Self-Assessment

The documents were reviewed to determine whether they are consistent with NIST guidance and
whether they describe the management4, operational5, and technical6 controls in place for GLTS.

2         Purpose

The system evaluation objectives were to review and evaluate the management, operational, and
technical controls for GLTS.

3         Findings

Carson Associates reviewed GLTS security documentation and found that:

      •   GLTS security documentation is not always consistent with National Institute of
          Standards and Technology guidelines.
      •   Security protection requirements are inconsistent within GLTS security documentation.
      •   Findings and recommendations resulting from testing are not consistently being tracked.

None of these weaknesses are considered to be significant deficiencies or reportable conditions
as defined in Office of Management and Budget guidance.

3.1       Security Documentation Is Not Always Consistent With NIST Guidelines

FISMA directs the Secretary of Commerce, on the basis of standards and guidelines developed
by NIST, to prescribe standards and guidelines pertaining to Federal information systems. NIST
has developed several guidelines and standards, including those for conducting risk assessments,
developing security plans, and contingency plans. NRC Management Directive (MD) 12.5, NRC
Automated Information Security Program, which was revised in September 2003, states that
NRC shall comply with NIST guidance to include guidance related to the preparation of security
documentation (such as system security plans, risk assessments, and contingency plans), and
other applicable NIST guidance for information technology security processes, procedures, and
testing.

The previous version of MD 12.5 did not require compliance with NIST guidelines, however,
OMB Circular A-130, Management of Federal Information Resources, Appendix III, Security of
Federal Automated Information Resources, states that each agency’s program shall implement

4
  The security controls (i.e., safeguards or countermeasures) for an information system that focus on the
management of risk and the management of information system security.
5
  The security controls (i.e., safeguards or countermeasures) for an information system that primarily are
implemented and executed by people (as opposed to systems).
6
  The security controls (i.e., safeguards or countermeasures) for an information system that are primarily
implemented and executed by the information system through mechanisms contained in the hardware, software, or
firmware components of the system.


                                                       2
                                                                                 System Evaluation of GLTS



policies, standards and procedures which are consistent with government-wide policies,
standards, and procedures issued by the Office of Management and Budget, the Department of
Commerce7, the General Services Administration and the Office of Personnel Management.
OMB periodically reminds agencies that agency security practices should be consistent with
NIST guidance. The FY 2004 FISMA guidance issued by OMB8 specifically states that agencies
must follow NIST standards and guidance. Use of NIST guidance is flexible, provided agency
implementation is consistent with the principles and processes outlined within the NIST
guidance.

Carson Associates reviewed the GLTS Risk Assessment, Security Plan, and Business Continuity
Plan and found that while the documentation is up-to-date, it is not always consistent with NIST
guidelines.

GLTS Security Plan Does Not Describe All Security Controls Identified As In-Place

OMB A-130 states that security plans shall be consistent with guidance issued by NIST. NIST
Special Publication (SP) 800-18, Guide for Developing Security Plans for Information
Technology Systems, states that the purpose of a security plan is to provide an overview of the
security requirements of the system and describe controls in place or planned for meeting those
requirements. NIST SP 800-18 also states that the security plan should fully identify and
describe the controls currently in place, or planned for the system. However, Carson Associates
found several areas in the Final System Security Plan for GLTS, dated August 23, 2002, where
controls were not described.

In order to identify what controls are currently in place for GLTS, Carson Associates reviewed
and analyzed two other documents in conjunction with the GLTS Security Plan – the GLTS self-
assessment, and results from security test and evaluation of GLTS controls conducted during the
certification and accreditation of GLTS.

FISMA requires agencies to test the management, operational, and technical controls of every
information system identified in their inventory no less than annually. OMB has instructed
agencies to use NIST SP 800-26, Self-Assessment Guide for Information Technology Systems, to
conduct the annual reviews. NIST SP 800-26 is based on the Chief Information Officer
Council’s “Federal Information Technology Security Assessment Framework” (the Framework).
The Framework comprises five levels to guide agency assessments of their security programs
and assist in prioritizing efforts for improvement. Level 1 reflects that an asset has documented
security policy. At Level 2, the asset also has documented procedures and controls to implement
the policy. For Level 3, procedures and controls have been implemented to protect the asset.
Level 4 indicates that procedures and controls are tested and reviewed. Finally, at Level 5, the
asset has procedures and controls fully integrated into a comprehensive program.

Carson Associates reviewed the FY 2003 GLTS self-assessment in order to identify controls in
place for GLTS. Any controls marked at least at a Level 3 in the GLTS self-assessment are

7
 NIST is part of the Technology Administration within the Department of Commerce.
8
 OMB Memorandum M-04-25, FY 2004 Reporting Instructions for the Federal Information Security Management
Act, dated August 23, 2004.


                                                    3
                                                                            System Evaluation of GLTS



considered to be in place based on the above definitions. The FY 2003 self-assessment was
reviewed as the agency had only provided a draft of the FY 2004 self-assessment when the
fieldwork was conducted.

Carson Associates also reviewed the results of the security test and evaluation of GLTS controls
conducted during the certification and accreditation of GLTS. Security certification is a
comprehensive assessment of the management, operational, and technical security controls in an
information system, made in support of security accreditation, to determine the extent to which
the controls are implemented correctly, operating as intended, and producing the desired
outcome with respect to meeting the security requirements for the system. Appendix D of the
GLTS Security Test and Evaluation Report, dated August 16, 2002, includes test procedure
worksheets used to record the results of the testing. The test objectives on the test procedure
worksheets correspond to the control objectives in the NIST SP 800-26 self-assessment. Each
test objective is marked as either pass, fail, or not applicable. A test objective marked as pass
represents a security control that is in place.

As a result of the review of the GLTS Security Plan, self-assessment, and security test and
evaluation results, Carson Associates identified several cases where the information in the GLTS
Security Plan, self-assessment and test procedure worksheets is inconsistent. The following are
some examples:

   •   Controls for matching personnel files with user accounts to ensure that terminated or
       transferred individuals do not retain system access are marked as “pass” on the test
       procedure worksheets, however the same control is marked as “not applicable” in the FY
       2003 GLTS self-assessment. In the FY 2004 GLTS self-assessment, the control is
       marked to indicate the control is done at the local area network level, not at the
       application level. The GLTS Security Plan does not describe these controls.
   •   The test control worksheets indicate that penetration testing is performed on the system.
       The GLTS self-assessment indicates that penetration testing is the responsibility of the
       local area network/wide area network and/or Data Center. Penetration testing is not
       described in the GLTS Security Plan.
   •   OFFICIAL USE ONLY BULLET REDACTED




RECOMMENDATIONS

   The Office of the Inspector General recommends that the Executive Director for Operations:

   1. Update the GLTS Security Plan to describe all controls currently in place. In-place
      controls are those marked at least at Level 3 in the self-assessment, and that were



                                                4
                                                                               System Evaluation of GLTS



       documented as passed in the last Security Test and Evaluation Report, or in any test and
       evaluation on controls added since publication of that report.

   2. Update the GLTS self-assessment to reflect controls in place. In-place controls are those
      that were documented as passed in the last Security Test and Evaluation Report, or in any
      test and evaluation on controls added since publication of that report.

GLTS Business Continuity Plan Is Not Consistent With NIST Guidelines

Carson Associates reviewed the GLTS Business Continuity Plan (BCP), dated March 31, 2004.
Guidance on developing contingency plans can be found in NIST SP 800-34, Contingency
Planning Guide for Information Technology Systems, which was published in June 2002. As
recommended by OMB, Carson Associates reviewed the GLTS BCP for consistency with NIST
guidelines and found that in some instances, the GLTS BCP is not consistent with NIST
guidelines.

According to the agency, NRC requires annual updates of all BCPs, however NRC only requires
conformance with current NIST guidance at the time of re-accreditation. This policy is not
documented in any agency management directive or in any documentation reviewed by Carson
Associates. Carson Associates was informed of this policy during the exit conference held to
discuss the findings of the GLTS system evaluation. Subsequent to the exit conference, Carson
Associates reviewed previous NIST guidance on the preparation of contingency plans, Federal
Information Processing Standards (FIPS) Publication 87, Guidelines for ADP Contingency
Planning, and found that the GLTS BCP (both the 2004 version and the previous version, dated
September 27, 2002) is also not consistent with the FIPS 87 guidance. It should be noted that the
previous version of the GLTS BCP was published in September 27, 2002, which was after NIST
issued SP 800-34. As stated earlier in this report, while the version of MD 12.5 that was in effect
at the time the GLTS BCP was published did not require compliance with NIST guidelines,
OMB requires agencies to follow NIST standards and guidance.

NIST SP 800-34 states that the contingency plan should be a living document that is changed as
required to reflect system, operational, or organizational changes. Modifications made to the
plan should be recorded in a record of changes. The GLTS BCP does not include any
information on what changes have been made to the plan and when. Without this information,
Carson Associates could not determine whether the BCP was updated as part of the annual
requirement, or as part of a system re-accreditation. The only indication that the BCP was a
revision was the word “Revised” on the cover page. FIPS 87 also states that an essential element
of any volatile document, such as a contingency plan, is a method of recording changes to the
document.

NIST SP 800-34 describes notification procedures and states that they should be documented in
the plan for both events that occur with and without prior notice. For example, advanced notice
is often given that a hurricane will affect an area or that a computer virus is expected on a certain
date. However, there may be no notice of equipment failure or a criminal act. The procedures
should describe the methods used to notify recovery personnel during business and non-business
hours. Prompt notification is important for reducing the effects on the system; in some cases, it



                                                  5
                                                                              System Evaluation of GLTS



may provide enough time to allow system personnel to shut down the system gracefully to avoid
a hard crash.

NIST SP 800-34 also states that personnel to be notified in the event of a disaster should be
clearly identified in the contact list appended to the plan. The list should identify personnel by
their team position, name, and contact information (e.g., home number, work number, pager
number, e-mail addresses, and home addresses). FIPS 87 also stresses the importance of
including the name, address, and phone numbers of all people who may be required in any
backup or recovery scenario in the BCP.

OFFICIAL USE ONLY PARAGRAPH REDACTED




NIST SP 800-34 defines the reconstitution phase as when recovery activities are terminated and
normal operations are transferred back to the organization’s facility. The reconstitution phase
should specify teams responsible for restoring or replacing both the site and the system. The
GLTS BCP does not include procedures for restoring system operations that include procedures
for cleaning the alternate site of any equipment or other materials belonging to the organization,
with a focus on handling sensitive information. While FIPS 87 does not discuss specific
procedures to be followed for cleaning the alternate site of any equipment or other materials
belonging to the organization, these procedures are necessary to ensure that no sensitive
materials remain at the alternate site.

RECOMMENDATION

   The Office of the Inspector General recommends that the Executive Director for Operations:

   3. Update the GLTS Business Continuity Plan to include the following changes:

       •   Record modifications to the plan in a record of changes to include what changes were
           made (e.g., the page numbers or section numbers where the changes were made), why
           the changes were made (e.g., annual update or update during re-accreditation), and
           date of change.
       •   Describe the methods used to notify recovery personnel during business and non-
           business hours.


                                                  6
                                                                                            System Evaluation of GLTS




          •   Incorporate all teams roles and responsibilities and relevant points of contact
              information for team leaders, alternate team leaders, and team members.
          •   Include procedures for restoring system operations, with a focus on how to clean the
              alternate site of any equipment or other materials belonging to the organization.

3.2       Security Protection Requirements Are Inconsistent Within Security
          Documentation

FISMA defines the term “information security” to mean protecting information and information
systems from unauthorized access, use, disclosure, disruption, modification, or destruction in
order to provide confidentiality, integrity, and availability. Confidentiality is preserving
authorized restrictions on information access and disclosure, including means for protecting
personal privacy and proprietary information. Integrity is guarding against improper information
modification or destruction, and includes ensuring information non-repudiation and authenticity.
Availability is ensuring timely and reliable access to and use of information. Confidentiality,
integrity and availability are often referred to as security protection requirements or security
objectives for a system.

FIPS Publication 199, Standards for Security Categorization of Federal Information and
Information Systems, requires all Federal agencies to categorize their systems by assigning
potential impact levels to the three security objectives. The potential impact is low if the loss of
confidentiality, integrity, or availability could be expected to have a limited adverse effect on
organizational operations, organizational assets, or individuals.9 The potential impact is
moderate (medium) if the loss of confidentiality, integrity, or availability could be expected to
have a serious adverse effect on organizational operations, organizational assets, or individuals.
The potential impact is high if the loss of confidentiality, integrity, or availability could be
expected to have a severe or catastrophic adverse effect on organizational operations,
organizational assets, or individuals.

The GLTS Security Plan defines protection requirements for GLTS as follows:

      •   Confidentiality – Medium
      •   Integrity – High
      •   Availability – Medium

However, the FY 2003 GLTS self-assessment and FY 2004 draft GLTS self-assessment
define protection requirements for GLTS as follows:

      •   Confidentiality – Medium
      •   Integrity – High
      •   Availability – Low



9
 Adverse effects on individuals may include, but are not limited to, loss of the privacy to which individuals are
entitled under law.


                                                           7
                                                                             System Evaluation of GLTS



The protection requirements should be consistent across the security documentation for a
system. A change in protection requirements could indicate a need to re-evaluate the risks to
the systems, especially if the change is from a lower rating to a higher one. If the protection
requirements have changed since the GLTS Security Plan was finalized, then an explanation
for the change should be noted on the GLTS self-assessment.

RECOMMENDATION

      The Office of the Inspector General recommends that the Executive Director for Operations:

      4. Update the GLTS Security Plan and/or GLTS self-assessment to consistently define the
         protection requirements (confidentiality, integrity, availability).

3.3      Findings and Recommendations Resulting From Testing Are Not
         Consistently Being Tracked

The FY 2003 FISMA independent evaluation of NRC’s information security program found that
the agency’s corrective action process needed improvement. NRC has two primary tools for
tracking the progress of corrective actions related to correcting weaknesses identified during the
annual agency security review, the OIG independent evaluation, various security documents, and
other security studies conducted by or on behalf of the agency. At a high level, NRC uses the
POA&M submitted to OMB to track corrective actions from the OIG annual independent
evaluation, and the agency’s annual review. At a more detailed, level, NRC uses the NRC
Information Technology Systems Security Tracking System (ITSSTS) to track the progress of
internal corrective actions (i.e., those not reported to OMB). ITSSTS is used to track more
specific corrective actions, such as those resulting from risk assessments; security test and
evaluation associated with the certification and accreditation process; and contingency plan
testing.

The FY 2003 FISMA independent evaluation of NRC’s information security program also found
that not all corrective actions resulting from security reviews and testing were being tracked.
The OIG recommended that the agency identify all weaknesses and recommendations from
security documentation and any other security reviews, and determine in which tool the
recommendations will be tracked. In November 2003, OCIO issued a memo describing the
agency’s information technology security action item tracking process, strategy, and tools. The
memo describes the types of activities that might identify security weaknesses in NRC
information technology systems and describes the two tools used by NRC for tracking the
process of security corrective actions – the FISMA POA&M and the ITSSTS. Carson
Associates found that findings and recommendations resulting from testing of GLTS security
controls and from GLTS contingency plan testing are not consistently being tracked.

Not All Findings Resulting from the GLTS Certification and Accreditation Are Being
Tracked

The GLTS Risk Assessment identified eight risks and Carson Associates found that all of them
were tracked in the ITSSTS. The GLTS Security Test and Evaluation Report also identified
eight risks, however these were not the same eight risks identified in the GLTS Risk Assessment.


                                                 8
                                                                            System Evaluation of GLTS



Two of risks identified in the GLTS Risk Assessment were not identified during the security test
and evaluation. These risks were 1) no individual assigned security responsibility for GLTS, and
2) no documented termination procedures are in place to ensure user access to GLTS is removed.
These risks are being tracked in the ITSSTS. However, two new risks were identified during the
security test and evaluation. These risks were 1) no system security plan in place for GLTS, and
2) adequate audit trails are not maintained by GLTS. However, these two risks are not being
tracked in the ITSSTS.

Carson Associates could not determine why the two new risks identified during security test and
evaluation were not being tracked in the ITSSTS. A possible cause is that since the total number
of risks identified during the risk assessment and the security test and evaluation were the same,
the two new risks may have been overlooked.

Findings and Recommendations Resulting from the GLTS BCP Testing Are Not
Consistently Being Tracked

Carson Associates reviewed the GLTS Business Continuity Test Report, dated May 18, 2004.
Tests of the BCP were conducted in April 2004 by using a walk through tabletop exercise. Three
tests scenarios were performed to include: (1) GLTS server outage, (2) Two White Flint North
Data Center is unavailable, and (3) Loss of availability of both NRC Buildings (One and Two
White Flint North). The testing identified four shortcomings, and resulted in three
recommendations. The agency is tracking the four shortcomings in their internal tracking
system, but is tracking the three recommendations in the POA&M to OMB.

OFFICIAL USE ONLY PARAGRAPH REDACTED




OFFICIAL USE ONLY PARAGRAPH REDACTED




                                                9
                                                                           System Evaluation of GLTS



There is no recommendation that correlates to the 1st shortcoming, and the last recommendation
does not correlate to any of the shortcomings. All four shortcomings are being tracked in the
ITSSTS, and all three recommendations are being tracked in the POA&M submitted to OMB.
However, since there is not a relationship between all of the shortcomings and the
recommendations, the shortcomings and recommendations are not being tracked consistently
across the agency’s tracking systems. The first shortcoming is only being tracked in the ITSSTS,
and the last recommendation is only being tracked in the POA&M submitted to OMB. Tracking
shortcomings (i.e., weaknesses) in one system and recommendations in another could result in
weaknesses not being addressed or overlooked, or in recommendations not being corrected on
time.

RECOMMENDATION

   The Office of the Inspector General recommends that the Executive Director for Operations:

   5. Track all actions items resulting from testing of the GLTS security controls and
      contingency plan in either the agency’s internal tracking system or in the agency’s plan of
      action and milestones submitted to OMB.




                                               10
                                                                             System Evaluation of GLTS



4      Consolidated List of Recommendations

The Office of the Inspector General recommends that the Executive Director for Operations:

    1. Update the GLTS Security Plan to describe all controls currently in place. In-place
       controls are those marked at least at Level 3 in the self-assessment, and that were
       documented as passed in the last Security Test and Evaluation Report, or in any test and
       evaluation on controls added since publication of that report.

    2. Update the GLTS self-assessment to reflect controls in place. In-place controls are those
       that were documented as passed in the last Security Test and Evaluation Report, or in any
       test and evaluation on controls added since publication of that report.

    3. Update the GLTS Business Continuity Plan to include the following changes:

       •   Record modifications to the plan in a record of changes to include what changes were
           made (e.g., the page numbers or section numbers where the changes were made), why
           the changes were made (e.g., annual update or update during re-accreditation), and
           date of change.
       •   Describe the methods used to notify recovery personnel during business and non-
           business hours.
       •   Incorporate all teams roles and responsibilities and relevant points of contact
           information for team leaders, alternate team leaders, and team members.
       •   Include procedures for restoring system operations, with a focus on how to clean the
           alternate site of any equipment or other materials belonging to the organization.

    4. Update the GLTS Security Plan and/or GLTS self-assessment to consistently define the
       protection requirements (confidentiality, integrity, availability).

    5. Track all actions items resulting from testing of the GLTS security controls and
       contingency plan in either the agency’s internal tracking system or in the agency’s plan of
       action and milestones.




                                                11
                                                                       System Evaluation of GLTS



5      OIG Response to Agency Comments

On September 13, 2004, the Executive Director for Operations provided comments concerning
the draft system evaluation report. We modified the report as we determined appropriate in
response to these comments.




                                             12
OFFICIAL USE ONLY                                                                      Appendix A
                                                                        System Evaluation of GLTS


SCOPE AND METHODOLOGY

To perform the GLTS system evaluation, Carson Associates reviewed the system’s security
documentation, including the Security Plan, Risk Assessment, self-assessment, Business
Continuity Plan, System Test and Evaluation Report, Certification and Accreditation
documentation, and the completion of weaknesses addressed, if any, within the FY 2003 plan of
action and milestones. Comprehensive document checklists were used in the evaluation process.

The work was conducted from June 2004 to August 2004 in accordance with guidelines from the
National Institute of Standards and Technology, and best practices for evaluating security
controls. Diane Reilly and Jane Laroussi from Carson Associates conducted the work.




                                             13
OFFICIAL USE ONLY                                                    Appendix A
                                                      System Evaluation of GLTS




                    [Page intentionally left blank]




                                  14
